SUPREME COURT OF THE UNITED STATES
No. 19-430

ATHENA DIAGNOSTICS, INC., ET AL.,
Petitioners,

Vv.

MAYO COLLABORATIVE SERVICES, LLC, DBA MAY MEDICAL
LABORATORIES, ET AL.,
Respondents.

 

CERTIFICATE OF SERVICE

I, Kirk M. Hartung, counsel for the Amicus Curiae, hereby certify that
on November 1, 2019, I served the BRIEF OF AMICUS CURIAE BLAINE
LABORATORIES, INC. IN SUPPORT OF NEITHER PARTY in the above-
captioned matter upon:

Seth P. Waxman

Wilmer Cutler Pickering Hale and Dorr LLP
1875 Pennsylvania Avenue NW
Washington, DC 20006

Counsel for Petitioners

Deanna J. Reichel

Fish & Richardson, P.C., P.A.

8200 RBC Plaza, 60 South Sixth Street
Minneapolis, MN 55402

Counsel for Respondent

by depositing three copies of same, addressed to each individual respectively,
and enclosed in a postage-prepaid, properly addressed wrapper, in an official
depository maintained by the United States Postal Service, via First Class
mail.

I further certify that all parties required to be served have been served.

I declare under penalty of perjury that the foregoing is true and
correct.

*Signature page follows*

 
Executed on NOV: , 2e9

hy. Lheahs

KIRK M. HARTUNG
Counsel for Amicus Curiae

Sworn to and subscribed before me this / day of November, 2019.

   
   
 

R ALICE A, PENDERGAST
‘$ Commission Number 796490
a ommission Expire:

2

    

    
